No. 19A____
IN THE
_______________

TERESA BUCHANAN,

Applicant,
v.
F. KING ALEXANDER, DAMON ANDREW, A.G. MONACO, AND GASTON REINOSO,

Respondents.
_______________
APPLICATION FOR AN EXTENSION OF TIME TO FILE
A PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________
ROBERT CORN-REVERE
Counsel of Record
RONALD G. LONDON
LISA B. ZYCHERMAN
DAVIS WRIGHT TREMAINE LLP
1919 Pennsylvania Ave., N.W.
Suite 800
Washington, DC 20006
(202) 973-4200
bobcornrevere@dwt.com

Counsel for Applicant
July 18, 2019

APPLICATION
To the Honorable Hon. Samuel A. Alito, Jr., Associate Justice and Circuit
Justice for the U.S. Court of Appeals for the Fifth Circuit:
Pursuant to Rule 13.5 of the Rules of This Court and 28 U.S.C. § 2101(c),
applicant Teresa Buchanan respectfully requests a 30-day extension of time, to and
including August 28, 2019, within which to file a petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Fifth Circuit.
1.

The United States Court of Appeals for the Fifth Circuit issued its

decision on March 22, 2019. See Teresa Buchanan v. F. King Alexander, et al., No.
18-30148 (Appendix A). Buchanan sought rehearing, which was denied on April 30,
2019 (Appendix B). Unless extended, the time to file a petition for certiorari will
expire on July 29, 2019. This application is filed more than ten days before the
petition is currently due. See Sup. Ct. R. 13.5. The jurisdiction of this Court would
be invoked under 28 U.S.C. § 1254.
2.

This case presents important questions of constitutional law on which

this Court has not spoken, specifically, use of vague and overbroad sexual harassment policies to punish pedagogical and non-pedagogical speech, and whether and
how the Court’s “matter of public concern” standard articulated in Pickering v.

Board of Education, 391 U.S. 563 (1968), Garcetti v. Ceballos, 547 U.S. 410 (2006),
and Lane v. Franks, 573 U.S. 228 (2014), may be applied to pedagogical speech.
3.

Former tenured professor Teresa Buchanan filed this civil rights action

asserting facial and as-applied First Amendment challenges to Louisiana State

University’s sexual harassment policies, and a due process challenge to her termination under the policy. On cross-motions for summary judgment, the district court
granted judgment for respondents on all counts.
4.

On appeal, Buchanan asked the Fifth Circuit to hold that LSU’s sexual

harassment policies violate the First Amendment on their face, that they are unconstitutional as they were applied to her, and that respondents are not protected by
qualified immunity. A panel for the Fifth Circuit affirmed the decision below on the
as-applied challenge, holding that some of applicant’s speech did not relate to
matters of public concern. It vacated the district court’s holding that LSU’s sexual
harassment policies are facially constitutional, but denied applicant’s facial
challenge on grounds she sued LSU’s President, the Dean of her college, and the
Vice Chancellor and the Director of LSU’s human resources office, but not LSU’s
Board of Supervisors. The panel also held respondents were entitled to qualified
immunity. Buchanan’s petition for rehearing en banc was denied.
5.

Buchanan seeks to have this Court clarify that sexual harassment

policies that fail to distinguish protected from unprotected speech using constitutionally accepted standards violate the First Amendment on their face, and as
applied to pedagogical speech. The Fifth Circuit vacated the district court’s decision
to uphold LSU’s sexual harassment policies, but affirmed their application even
though they fail to distinguish protected from unprotected speech, much like similar
policies that other circuits have invalidated. E.g., DeJohn v. Temple Univ., 537
F.3d 301 (3d Cir. 2008). The circuit’s holding that LSU’s policy was constitutional
2

as applied failed to consider that the charges against Buchanan did not separate
protected from unprotected speech, and even the decisionmakers could not identify
what speech motivated their decision. The circuit’s refusal to consider Buchanan’s
facial challenge not only potentially leaves those subject to such policies without a
federal court remedy given prior Fifth Circuit rulings on the sovereign immunity
LSU’s Board enjoys, it raises the question of whether the First Amendment ever
allows punishment under a facially unconstitutional speech code.
6.

During the next several weeks, undersigned counsel is handling

hearings on dispositive motions in a criminal matter in federal court in Arizona,

United States v. Lacey, et al. No. CR-18-422-PHX-SMB (D. Ariz.), and in two civil
matters in different Texas state courts, Doe v. Facebook, et al., No. 2018-69816
(Harris Cty. 334th Dist., Tex.), and Doe #3 v. Backpage.com, LLC, et al., No. 201812781 Harris Cty. 125th Dist., Tex.), as well as a hearing on a motion to stay yet a
third Texas civil matter, Doe #2 v. Lacey, et al., No. 2018-09781 (Harris Cty. 129th
Dist., Tex.), with responsive briefing due just ahead of each hearing under Texas’
rules of civil procedure.
7.

For these reasons, applicant respectfully requests that an order be

entered extending the time to file a petition for certiorari to and including
August 28, 2019.

3

Respectfully submitted,

ROBERT CORN-REVERE
Counsel of Record
RONALD G. LONDON
LISA B. ZYCHERMAN
DAVIS WRIGHT TREMAINE LLP
1919 Pennsylvania Ave., N.W.
Suite 800
Washington, DC 20006
(202) 973-4200

Counsel for Applicant
July 18, 2019

4

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing Application for
Extension of Time with the Clerk of the Court for the Supreme Court of the United
States by using the CM/ECF system on July 18, 2019, and that copies were sent via
First Class mail to the following Respondents:
Sheri Marcus Morris, Esq.
Daigle, Fisse & Kessenich
Suite F
8480 Bluebonnet Boulevard
Baton Rouge, LA 70810
Carlton Jones, III
Louisiana State University
Office of General Counsel
Room 124
3810 W. Lakeshore Drive
Baton Rouge, LA 70808

s/ Robert Corn-Revere
Robert Corn-Revere

